HHS/OIG, Audit - "Review of Medicare Payments for Beneficiaries with Institutional Status - Aetna U.S. Healthcare, King of Prussia, Pennsylvania," (A-05-01-00090)
Department
of Health and Human Services
"Review of Medicare Payments for Beneficiaries with Institutional Status,
Aetna U.S. Healthcare, King of Prussia, Pennsylvania," (A-05-01-00090)
July 23, 2002
Complete Text of Report is available in PDF format
(345 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review
was to determine if payments to Aetna (Contract H3951) were appropriate for
beneficiaries reported as institutionalized.  We determined that Aetna
received Medicare overpayments totaling $87,516 for 90 beneficiaries incorrectly
reported as institutionalized during the period January 1, 1998 through December
31, 2000.  Institutional status requirements specify that a beneficiary
must be a resident of a qualifying facility for a minimum of 30 consecutive
days immediately prior to the first day of the current reporting month.
The 90 beneficiaries included 48 that had admittance or discharge dates during
the 30-day residency period and 42 beneficiaries residing in facilities not
certified for Medicare or Medicaid.